Audit Report




OIG-10-006
Management Letter for Fiscal Year 2009 Audit of the
Bureau of Engraving and Printing’s Financial Statements


November 10, 2009




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 10, 2009


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                           BUREAU OF ENGRAVING AND PRINTING

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009 Audit of the
                                  Bureau of Engraving and Printing’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Bureau of Engraving and Printing’s (BEP) Fiscal Year 2009 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            financial statements of BEP as of September 30, 2009, and for the year then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operations that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits, at
            (202) 927-5407.

            Attachment
THE DEPARTMENT OF THE TREASURY

   BUREAU OF ENGRAVING AND
           PRINTING




          MANAGEMENT LETTER
 FOR THE YEAR ENDED SEPTEMBER 30, 2009
            OCTOBER 30, 2009
                                      THE DEPARTMENT OF THE TREASURY
                                      BUREAU OF ENGRAVING AND PRINTING
                                             MANAGEMENT LETTER
                                     FOR THE YEAR ENDED SEPTEMBER 30, 2009

                                                      TABLE OF CONTENTS




MANAGEMENT LETTER ..................................................................................................................1

APPENDIX ................................................................................................................................ A-1

COMMENTS AND RECOMMENDATIONS ...................................................................................... A-1

   2009-01         Lack of Proper Documentation for Procurement Approvals (NFR 09-02) ............A-1
   2009-02         Errors in the Calculation of Accrued Interest for Prompt Pay Act (NFR 09-03)...A-2
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




October 30, 2009

The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the financial statements of the Bureau of Engraving and Printing (the Bureau),
as of and for the year ended September 30, 2009, and have issued our report thereon dated
October 30, 2009. In planning and performing our audit of the financial statements of the Bureau,
we considered internal control over financial reporting (internal control) as a basis for designing
our auditing procedures for the purpose of expressing our opinion on the financial statements. We
have also examined management’s assertion that the Bureau maintained effective internal control
over financial reporting as of September 30, 2009, and have issued our report thereon dated
October 30, 2009.

During our audit, we noted matters related to internal control and other operational matters that
are presented for your consideration in an appendix to this report. These comments and
recommendations, all of which have been discussed with the appropriate members of
management, are intended to improve internal control or result in other operating efficiencies.
Management’s response to these comments and recommendations are included in the appendix.
We did not audit the Bureau’s responses and, accordingly, we do not express an opinion on them.

Our audit procedures were designed primarily to enable us to form an opinion on the financial
statements and to form an opinion on management’s assertion and, therefore, may not bring to
light all weaknesses in policies and procedures that may exist. We aim, however, to use our
knowledge of the Bureau’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at your request.

This report is intended solely for the information and use of the Department of the Treasury’s
Office of Inspector General and management of the Bureau, and is not intended to be and should
not be used by anyone other than these specified parties.

Very truly yours,




                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
                                                                                       Appendix




                            COMMENTS AND RECOMMENDATIONS


2009-01         Lack of Proper Documentation for Procurement Approvals (NFR 09-02)

During our test work over the procurement process in FY 2009, we noted the following
exceptions in the execution of the Bureau of Engraving and Printing’s (the Bureau) internal
controls over the procurement process:

   •   For 1 of 58 items selected for testing the Purchase Order was not signed by a Budget
       Analyst to indicate funds were available.

   •   For 1 of 58 items selected for testing an invoice was paid for the incorrect amount. The
       vendor submitted an incorrect invoice to the Bureau. The Contracting Officer’s Technical
       Representative (COTR), identified the issue and calculated a different amount to pay.
       However, this calculation was incorrect and resulted in an underpayment to the vendor.

Each exception related to a different control in the procurement process and were from different
sample items.

Without proper written authorization of procurement contracts and agreements, the agency
increases the risk of improper payments, and disbursements of Federal funds. In addition,
without a proper authorization for payment and proper review of mathematical accuracy, the
Bureau may make payments to vendors for incorrect amounts, or for work that has not been
completed.

The Bureau failed to consistently execute the controls established within the procurement
process, which requires authorized individuals to sign off on various documents evidencing that it
has been properly reviewed and approved. BEP also failed to ensure that the COTR determined
payment amount was properly reviewed.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, in the introduction
section notes the requirements of the Federal Managers’ Financial Integrity Act (FMFIA) of
1982: “The agency head must establish controls that reasonably ensure that …iii. Revenues and
expenditures applicable to agency operations are properly recorded and accounted for to permit
the preparation of accounts and reliable financial and statistical reports and to maintain
accountability over the assets.”

In addition, U.S. Government Accountability Office’s (GAO) Standards for Internal Control in
the Federal Government (GAO/AIMD-00-21.3.1) (the Standards) states: “Control activities
occur at all levels and functions of the entity. They include a wide range of diverse activities
such as approvals, authorizations, verifications, reconciliations, performance reviews,
maintenance of security, and the creation and maintenance of related records which provide
evidence of execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual processes.”

The Standards also provides examples of control activities, which include “reviews by
management at the functional or activity level.”



                                               A-1
                                                                             Appendix, continued



We recommend that the Bureau management reinforce the importance of procedures regarding
the proper review and approval of purchase orders and invoices. Management should also ensure
that proper controls exist to ensure that review procedures are consistently executed.

Management Response:

BEP management concurs with the finding and recommendation. Management is fully aware of
the importance of consistently executing controls established for various procurement processes;
and therefore, intends to initiate plans to re-enforce compliance with established policies and
procedures designed to avoid such incidents.

2009-02         Errors in the Calculation of Accrued Interest for Prompt Pay Act (NFR 09-03)

During our test work over the Bureau’s compliance with the Prompt Payment Act, KPMG noted
two instances out of 58 tested where the interest penalty payments were made for the incorrect
amounts. Specifically, we noted one instance where interest was paid in the amount of $3.14 and
should have been $3.44, and a second instance where interest was paid in the amount of $5.07
and should have been $4.29.

The Bureau’s information system automatically calculates interest penalty payments based on a
comparison of the invoice payment date and the invoice due date. Per initial discussions with the
Bureau, the error was due to the interest rate in the system not being updated on a timely basis.
However, when KPMG recalculated the interest penalty using the prior period’s interest rate,
there was still a $0.48 net difference between our recalculated amount and what was paid.

It should be noted that total interest penalty payments made for all of FY 2009 amounted to
$1,520.72.

The Prompt Payment Act (5 CFR 1315) requires Federal agencies to pay their bills on time, pay
interest penalties when payments are made late, and take discounts only when payments are made
within the discount period and are advantageous to the government. The Prompt Payment Act
provides that agencies make payments as close as possible to, but no later than, the due date or, if
appropriate, the discount date. Payments will be based upon the receipt of “proper invoices” and
“satisfactory performance” of contract items. Interest penalties should be promptly paid when
agencies fail to make timely payments or when discounts are taken after the expiration of the
discount period. Agencies must absorb interest penalty payments out of their operating funds.

The calculation of the amount of interest should be in accordance with 5 CFR 1315.10 which
states “Interest will be calculated from the day after the payment due date through the payment
date at the interest rate in effect on the day after the payment due date.”

We recommend that the Bureau determine what is causing the system to incorrectly calculate
interest penalty payments. We also recommend the Bureau implement internal controls to
correctly update the system interest rate on a timely basis.




                                                A-2
                                                                          Appendix, continued


Management Response:

BEP management concurs with the finding and recommendation. Our analysis determined that
there were two factors in the inaccurate calculation of Prompt Payment interest on late invoice
payments.

1. Timing difference - the effective interest rate issued by Treasury is not always updated in
BEPMIS in a timely manner.

2. Rounding - a quotient within the formula is being rounded to two places to the right of the
decimal whereas the Prompt Payment Rule for calculating interest does not include a provision
for rounding prior to the final result.

We will correct these two issues as follows:

1. Timing difference - FMS does not issue notifications when the interest rate is updated every
six months. Therefore, the Bureau has established a notification reminder in Outlook.

2. Rounding - the Bureau will submit a request for IT to modify the program to stop rounding the
quotient.




                                               A-3
